                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00925-299


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

  Wilkes-Barre VA Medical Center 

    Wilkes-Barre, Pennsylvania 





October 7, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of August 4, 2014, at the following
CBOCs which are under the oversight of the Wilkes-Barre VA Medical Center and
Veterans Integrated Service Network 4:

    Northampton County CBOC, Bangor, PA

    Williamsport CBOC, Williamsport, PA

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	    The parent facility includes staff at the Northampton County and Williamsport
      CBOCs in required education, training, planning, and participation in annual disaster
      exercises.

	    The parent facility documents Emergency Management Preparedness-specific
      training completed for the clinical providers at the Northampton County and
      Williamsport CBOCs.

	    The parent facility’s Emergency Management Committee evaluates the Northampton
      County and Williamsport CBOCs’ emergency preparedness activities, participation in
      annual disaster exercises, and staff training/education relating to emergency
      preparedness requirements.

Alcohol Use Disorder. Ensure that CBOC/PCC staff consistently:

	    Document the offer of further treatment to patients diagnosed with alcohol
      dependence.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Consistently provide       written   medication     information    that    includes    the
      fluoroquinolone.

	    Provide medication counseling/education as required.


VA OIG Office of Healthcare Inspections                                                        i
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We consider
recommendations 1, 2, and 3 closed. We will follow up on the planned actions for the
open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                             CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are elements of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                            CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Northampton
County and Williamsport CBOCs. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.
Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       mental health clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
 NA    The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.



VA OIG Office of Healthcare Inspections                                                                 3
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


NM               Areas Reviewed (continued)                                   Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
 X     The parent facility includes the CBOC in           The parent facility did not:
       required education, training, planning, and            Include the Northampton County and
       participation leading up to the annual disaster           Williamsport CBOCs in required
       exercise.                                                 education, training, planning, and
                                                                 participation leading up to the annual
                                                                 disaster exercises.
                                                              Document Emergency Management
                                                                 Preparedness-specific training for the
                                                                 Northampton County and Williamsport
                                                                 CBOCs’ clinical providers.
 X     The parent facility’s Emergency Management         The parent facility’s Emergency Management
       Committee evaluates CBOC emergency                 Committee did not evaluate the Northampton
       preparedness activities, participation in annual   County and Williamsport CBOCs’ emergency
       disaster exercise, and staff training/education    preparedness activities, participation in annual
       relating to emergency preparedness                 disaster exercise, and staff training/education
       requirements.                                      relating to emergency preparedness
                                                          requirements.



VA OIG Office of Healthcare Inspections                                                                      4
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


Recommendations

1. We recommended that the parent facility includes staff at the Northampton County and
Williamsport CBOCs in required education, training, planning, and participation in annual
disaster exercises.

2.     We recommended that the parent facility documents Emergency Management
Preparedness-specific training completed for the Northampton County and Williamsport CBOCs’
clinical providers.

3. We recommended that the parent facility’s Emergency Management Committee evaluates
the Northampton County and Williamsport CBOCs’ emergency preparedness activities,
participation in annual disaster exercises, and staff training/education relating to emergency
preparedness requirements.




VA OIG Office of Healthcare Inspections                                                                 5
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for any of the five patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

4. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                                    6
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 32 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 5 (16 percent) of 32 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that
       medications was provided at the end of the        22 (69 percent) of 32 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   4 (13 percent) of 32 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6. We recommended that staff consistently provide written medication information that includes
the fluoroquinolone.

7. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                    7
                                  CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                          CBOC and PCC Reviews at CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                                                              Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                         Uniques4                                   Encounters4

                                    Station                  CBOC
        Location          State                Locality5                   MH7        PC8       Other9       All        MH7        PC8       Other9       All
                                       #                      Size6
                                                           Very
    Allentown             PA       693B4       Urban       Large          2,903       8,719      8,803     10,422     20,594     18,812     45,128     84,534
    Williamsport          PA       693GB       Urban       Mid-Size         800       3,849      1,576      4,179      3,915      7,823      4,390     16,128
    Sayre                 PA       693GA       Rural       Mid-Size         332       2,902      2,815      3,130      1,700      8,169     13,598     23,467
    Berwick
    (Columbia
    County)               PA       693GF       Urban       Small             179      1,437          87     1,493      1,003       3,115        118      4,236
    Bangor
    (Northampton
    County)               PA       693GG       Urban       Small              89      1,318         503     1,361         241      3,282      1,630      5,153
    Tobyhanna             PA       693GC       Rural       Small              42        606         181       629         118      1,137        268      1,523
 




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                             CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and mental health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.10

                                  Specialty Care                                                Tele-Health
            CBOC                                              Ancillary Services12
                                    Services11                                                  Services13
    Allentown                       Optometry                     Laboratory                Tele Primary Care
                                      Dental                      Pharmacy
                                     Podiatry                     Audiology
                                 Ophthalmology                    Radiology
                                   Dermatology               Electrocardiography
                                   Orthopedics                  Diabetes Care
                                  Rheumatology                MOVE! Program14
                                 General Surgery               Diabetic Retinal
                                                                  Screening
                                                                   Nutrition
                                                                    VIST15
                                                             Prosthetics/Orthotics
    Williamsport                 Anti-Coagulation                                           Tele Primary Care
                                       Clinic
                                   Social Work
    Sayre                            Podiatry                     Laboratory                Tele Primary Care
                                 Anti-Coagulation                 Radiology
                                       Clinic                Prosthetics/Orthotics
                                    Optometry                      Nutrition
                                                             Electrocardiography
    Berwick (Columbia                     ---                                               Tele Primary Care
    Co.)
    Northampton County           Anti-Coagulation                                           Tele Primary Care
                                       Clinic
    Tobyhanna                           ---                                                 Tele Primary Care
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

15
    The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely

disabled and visually impaired Veterans and active duty service members.


VA OIG Office of Healthcare Inspections                                                                           10
                                                                        CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                                                                    Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                        CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence
of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                       CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                 13
                                                                        CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.
VA OIG Office of Healthcare Inspections                                                                                                                   14
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       September 16, 2014

          From:        Interim Director, VA Healthcare – VISN 4 (10N4)

       Subject: 	      CBOC and PCC Reviews of the Wilkes-Barre VA Medical
                       Center, Wilkes-Barre, PA

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

                       1. I have reviewed the response provided by the Wilkes-
                          Barre VA Medical Center and I am submitting to your
                          office as requested. I concur with all responses.

                       2. If 	you have any questions or require additional
                          information, please contact Moira Hughes, Acting VISN
                          Quality Management Officer at 412-822-3294.




                         Attachment




VA OIG Office of Healthcare Inspections                                                       15
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


           Date:       September 16, 2014

          From:        Director, Wilkes-Barre VA Medical Center (693/00)

       Subject: 	      CBOC and PCC Reviews of Wilkes-Barre VA Medical
                       Center, Wilkes-Barre, PA

             To:       Interim Director, VA Healthcare – VISN 4 (10N4)

                       1. 	 VA Medical Center Wilkes-Barre, PA, (WBVAMC)
                            concurs with the OIG recommendations as outlined in the
                            report.

                       2. 	 Attached please     find    WBVAMC       response          to
                            recommendations outlined in the OIG report.




                       Michael D. Adelman, M.D.




VA OIG Office of Healthcare Inspections                                                       16
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the parent facility includes staff at the
Northampton County and Williamsport CBOCs in required education, training, planning,
and participation in annual disaster exercises.

Concur

Target date for completion: September 9, 2014

Facility response: CBOCs were included in the preparation/training related to the
upcoming disaster drill "Exercise Roll Call" via Video - Teleconference and Email and
Phone on an as needed basis. Exercise was conducted on 9/9/2014 with after action
report to be completed by 9/26/2014 which will identify subsequent training
requirements.

This will continue to be an annual ongoing process for continued maintenance of the
Emergency Management Program.

Recommendation 2. We recommended that the parent facility documents Emergency
Management Preparedness-specific training completed for the Northampton County
and Williamsport CBOCs’ clinical providers.

Concur

Target date for completion: September 9, 2014

Facility response: Emergency Management Coordinator is in the process of conducting
initial site surveys to determine site specific requirements and vulnerabilities of each site
of service. Actions include identifying key personnel (roles/responsibilities) and
fostering relationships with Emergency Response Units (Fires/Police/EMS) and
Community Emergency Managers. Exercise was conducted on 9/9/2014.

An Emergency Management Drill, "Exercise Roll Call" is scheduled for September at
the CBOCs. The drill will service to identify the strengths and weaknesses of each site,
with subsequent training modeled from the findings. Findings will be documented via
Knowledge Center LOG (on-line program) and documented on an After Action Review.

Training began in August 2014 with documentation maintained by the Emergency
Management Coordinator.




VA OIG Office of Healthcare Inspections                                                       17
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


This will continue to be an annual ongoing process for continued maintenance of the
Emergency Management Program.

Recommendation 3.           We recommended that the parent facility’s Emergency
Management Committee evaluates the Northampton County and Williamsport CBOCs’
emergency preparedness activities, participation in annual disaster exercises, and staff
training/education relating to emergency preparedness requirements.

Concur

Target date for completion: September 19, 2014

Facility response: Representatives from all CBOC’s are members of the Emergency
Management Committee. The Emergency Management Committee will discuss and
evaluate CBOC’s training event held on 9/9/14 at the next meeting on
September 19, 2014. Long range planning for FY 15 will also be discussed at this time.

Recommendation 4.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: January 31, 2015

Facility response: The AUDIT-C clinical reminder was modified in February 2014 to
make referral options mandatory. The charts reviewed were completed prior to the
clinical reminder change.

The Fourth Quarter FY 14 EPRP data shows that WBVAMC is at 96.7 percent and
97.51percent since implementation of AUDIT-C clinical reminder. We will continue to
monitor on a quarterly basis.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: April 15, 2015

Facility response: “Medication Reconciliation” is initiated at every episode or transition
in level of care where medications will be administered, prescribed, modified, or may
influence the care given” based by current VHA Directive 2011-012 “Medication
Reconciliation.”

Providers will be documenting medication reconciliation in the Medication reconciliation
note. Written education/guidance sent via e-mail through chief of Staff’s office on how


VA OIG Office of Healthcare Inspections                                                       18
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA


to appropriately document medication reconciliation. There will be follow up face to face
education at staff meetings.

A monthly administrative audit is conducted on three random charts per provider and
reported to patient safety each month. Going forward the clinical services will change
the audit to make it a clinical audit to assess if the medication reconciliation was
completed appropriately with a bench mark of > 90%. Pharmacy will provide in-service
for all providers on how to complete medication reconciliation appropriately.

Process change initiation September 15, 2014.

Recommendation 6.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: April 15, 2015

Facility response: Patients receive written information in the form of FDA medication
guide and standard auxiliary labels and prescription drug information accompanied with
each fluoroquinolone prescription. Written educational resources made available to
providers and nursing for distribution to the patients at the time of initiating a
prescription. A mandatory fluoroquinolone template was initiated on August 29, 2014 to
confirm written information distributed to the patient.

Recommendation 7.           We recommended                that    staff   provide    medication
counseling/education as required.

Concur

Target date for completion: December 31, 2014

Facility response:      A fluoroquinolone mandatory template was implemented on
July 29th. This template is all inclusive and includes information on details of education
that will be provided to the patient and patient's understanding of education provided.




VA OIG Office of Healthcare Inspections                                                       19
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Margie Chapin, RT (R, MR, CT), JD, Team Leader
Contributors            Sonia Whig, MS, LDN
Other                   Jennifer Christensen, DPM
Contributors            Lin Clegg, PhD
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Terri Julian, PhD
                        Alison Loughran, JD, RN
                        Melanie Oppat, MEd, LDN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       20
                         CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare – VISN 4 (10N4)
Director, Wilkes-Barre VA Medical Center (693/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Robert P. Casey, Jr., Patrick J. Toomey
U.S. House of Representatives: 	Lou Barletta, Matthew Cartwright, Charles W. Dent,
 Tom Marino


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       21
                              CBOC and PCC Reviews at Wilkes-Barre VA Medical Center, Wilkes-Barre, PA
                                                                                          Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
